                                             U.S. DEPARTMENT OF
                              HOUSING AND URBAN DEVELOPMENT
                                      OFFICE OF INSPECTOR GENERAL



                                                  January 10, 2013
                                                                                          MEMORANDUM NO:
                                                                                               2013-PH-1801


Memorandum
TO:           Dennis G. Bellingtier
              Director, Office of Public Housing, Pennsylvania State Office, 3APH

              //signed//
FROM:         John P. Buck
              Regional Inspector General for Audit, Philadelphia Region, 3AGA

SUBJECT:      Review of the Circumstances Concerning the Abrupt Departure of the Executive
              Director of the Philadelphia Housing Authority, Philadelphia, PA, and the Potential
              Improper Use of HUD Funds



                                         INTRODUCTION

We conducted a review of the Philadelphia Housing Authority based on questions surrounding
the abrupt departure of the Authority’s executive director in June 2012. Our objective was to
determine whether the Authority’s executive director improperly used U.S. Department of
Housing and Urban Development (HUD) funds by providing improper gifts or unsupported
promotions to a senior staff member with whom he had an improper relationship.

                              METHODOLOGY AND SCOPE

To accomplish our objective, we obtained and reviewed the following:

       •   The Authority’s June 15, 2012, closing memorandum, which reported the results of
           an internal investigation conducted by its Office of Audit and Compliance,
           Investigations Division, to determine whether a senior staff member had been
           afforded executive positions because of her improper relationship with the executive
           director. We relied on the statement in the closing memorandum that the two
           individuals admitted to the improper relationship and the dates that it occurred;




                                                   Office of Audit Region 3
                                            The Wanamaker Building, Suite 10205
                                     100 Penn Square East, Philadelphia, PA 19107-3380
                              Visit the Office of Inspector General Website at www.hudoig.gov
       •   Credit card statements supporting the Authority’s payments to its credit card account
           for transactions that occurred during the period December 22, 2010, through April 16,
           2012, and travel reimbursement documentation for all employees and payments to all
           vendors for travel and training expenses incurred during the period January 21, 2011,
           through June 4, 2012, to determine whether HUD funds were improperly used as a
           result of the executive director’s improper relationship with a senior staff member;
           and

       •   The senior staff member’s personnel file to determine whether her educational
           achievement and work experience qualified her for promotions that she received.

We conducted the review at various times between July and December 2012, at our office
located in Philadelphia, PA. Our review covered transactions and events that occurred during the
period January 1, 2011, through June 4, 2012. This was a limited scope review. Therefore, it
was not performed in accordance with generally accepted government auditing standards.

                                       BACKGROUND

On June 15, 2012, the executive director of the Philadelphia Housing Authority abruptly
resigned from his position. The media reported that he resigned because of an improper
relationship with a senior staff member, which he later admitted. Also on June 15, 2012, the
Authority’s Office of Audit and Compliance, Investigations Division, issued a closing
memorandum, which reported the results of an internal investigation that it had conducted. It
concluded that the senior staff member and the executive director had an improper relationship,
but the senior staff member did not receive any special benefits because of the relationship. The
parties admitted that the relationship began around October 2011 and lasted until April 2012.

                                   RESULTS OF REVIEW

Based on our limited review, we did not identify evidence that the Authority’s executive director
improperly used HUD funds by providing improper gifts or unsupported promotions to a senior
staff member with whom he had an improper relationship.

The Senior Staff Member Did Not Receive Improper Gifts

The executive director did not use Authority resources to provide improper gifts to the senior
staff member. The Authority’s credit card documentation, travel reimbursement checks, and
payments to vendors for travel expenses showed no evidence that the executive director used
Authority resources to provide improper gifts to the senior staff member.

The Senior Staff Member Was Qualified for Promotions She Received

The senior staff member was qualified for the promotions that she received at the Authority. Her
personnel file contained documentation to demonstrate her educational achievement and
previous work experience. The file contained copies of diplomas showing that she had earned
two bachelor’s degrees, two master’s degrees, and a doctorate in philosophy. Her previous work



                                                2
experience related to the positions she had held at the Authority since August 2009; specifically,
senior advisor, director of research and development, director of human resources (all before the
admitted date that the improper relationship started), and director of special projects. The
executive director promoted the senior staff member to the position of director of special projects
in April 2012; however, it was a lateral promotion, and there was no increase in her salary.

                                   RECOMMENDATIONS

Based on the results of our review, there are no recommendations.




                                                3
